Appendix A

("I 0/ b)

Case: 17-72233, 08/27/2019, ID: 11411559, DktEntry: 32-1,

Page 1 of 2

NOT FOR PUBLICATION

FILED

UNTIED STATES COURT OF APPEALS

AUG 27 2019
MOLLY C. DWYER, CLERK

FOR THE NINTH CIRCUIT
BRIAN EDWARD HARRISS,
Petitioner-Appellant,

U.S. COURT OF APPEALS

No. 1772233
Tax Ct. Nos.12528-14, 25358-14

v.
COMMISSIONER OF INTERNAL
REVENUE,

MEMORANDUM*

Respondent-Appellee.
Appeal from a Decision of the
United States Tax Court
Submitted August 19, 2019"
Before:

SCHROEDER, PAEZ, and HURWITZ, Circuit Judges.

Brian Edward Haniss appeals pro se from the Tax Court's decision
upholding the Commissioner of Internal Revenue's determination of deficiency for
tax years 2010 and 2011. We have jurisdiction under 26 U.S.C. ยง 7482(a)(1). We
review de novo the Tax Court's conclusions of law and for clear error its factual

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).

ca of b)
Case: 17-72233, 08/27/2019, ID: 11411559, DktEntry: 32-1, Page 2 of 2

findings. Meruelo v. Comm'r, 691 F.3d 1108, 1114 (9th Cir. 2012). We affirm.
The Tax Court properly upheld the Commissioner's deficiency
determinations for tax years 2010 and 2011 because the record showed that Harriss
had earned taxable income, and the legal basis for Harriss's argument to the
contrary was frivolous. See 26 U.S.0 ยง 61(a)(1) (explaining that "gross income"
includes "compensation for services"); United States v. Romero, 640 F.2d 1014,
1016 (9th Cir. 1981) (compensation for labor or services, paid in the form of wages
or salary, has been universally held by the courts to be income, and subject to
income tax).
The Tax Court did not err by imposing penalties against Harriss for filing an
untimely tax return for 2011 and for inaccurately reporting his income for tax. years
2010 and 2011. See 26 U.S.C. ยง 6651(a)(1) (addition appropriate when taxpayer
fails to file timely taxes unless such failure was due to reasonable cause and not
due to willful neglect); id ยง 6662(a) (imposing penalty for negligence or disregard
of rules or regulations).
AFFIRMED.

